Biennial Hazardous Waste Data: Opportunity for
Improvement
                                               #7100114



Inspector General Division Conducting the Audit:
Headquarters Audit Division
Washington, DC

Regions Covered:
Regions 4, 5, 7

Program Office Involved:
Office of Solid Waste and Emergency Response



                                         TABLE OF CONTENTS

   •   EXECUTIVE SUMMARY
   •   CHAPTER 1 - INTRODUCTION
         o PURPOSE
         o BACKGROUND
         o SCOPE AND METHODOLOGY
         o MANAGEMENT CONTROLS
         o PRIOR AUDIT COVERAGE
         o AGENCY EFFORTS TO IMPROVE THE BIENNIAL REPORTING PROCESS
   •   CHAPTER 2 - THE BIENNIAL REPORT PROCESS AND BRS ARE COMPLEX
         o BIENNIAL REPORTING INSTRUCTIONS NEED TO BE STREAMLINED
         o CODES UNIQUE TO THE BIENNIAL REPORT NEED TO BE REASSESSED
         o DATA ARE NOT EASILY OBTAINED FROM BRS
         o EXPANDED USE OF COMPUTER TECHNOLOGY NEEDS TO BE PURSUED
         o ACCESS TO BRS FILES NEEDS TO BE IMPROVED
         o RECOMMENDATIONS
         o AGENCY COMMENTS AND OIG EVALUATION
   •   CHAPTER 3 - IMPACT OF EPA's 1997 BIENNIAL REPORT CHANGES
         o WHY WASTE MINIMIZATION REPORTING IS IMPORTANT
         o 1997 BIENNIAL REPORT ICR MAY NOT MEET WASTE MINIMIZATION STATUTORY
            REQUIREMENTS
         o WASTE MINIMIZATION INSTRUCTIONS WERE DIFFICULT FOR FACILITIES TO
            UNDERSTAND
         o AGENCY CONCLUDED THAT HAZARDOUS WASTE CAPACITY IS ADEQUATE
         o WASTEWATER CAN SKEW HAZARDOUS WASTE DATA
         o RECOMMENDATIONS
         o AGENCY COMMENTS AND OIG EVALUATION
   •   APPENDIX I - AGENCY RESPONSE TO DRAFT REPORT
   •   APPENDIX II - REPORT DISTRIBUTION
